18. MERCHANT DISPUTES — The Credit Union is not
responsible for the refusal of any merchant or financial
institution to honor your card. The Credit Union is subject
to claims and defenses (other than tort claims) arising out
of goods or services you purchase with the card if you have
made a good faith attempt but have been unable to obtain
satisfaction from the merchant or service provider, and (a)
your purchase was made in response to an advertisement
the Credit Union sent or participated in sending to you; or (b)
your purchase cost more than $50.00 and was made in your
state or within 100 miles of your home.
19. JOINT ACCOUNTS — If this is a joint account, each of
you will be individually and jointly responsible for paying all
amounts owed under this Agreement. This means that the
Credit Union can require any one of you individually to repay
the entire amount owed under this Agreement. Each of you
authorizes the other(s) to make purchases or cash advances
individually. Any one of you may terminate the account and
the termination will be effective as to all of you.
20. EFFECT OF AGREEMENT — This Agreement is the
contract which applies to all transactions on your account
even though the sales, cash advances, credit or other slips
you sign or receive may contain different terms.
21. NO WAIVER — The Credit Union can delay enforcing any
of its rights any number of times without losing them.
22. STATEMENTS AND NOTICES — Statements and notices
will be mailed to you at the appropriate address you have
given the Credit Union. Notice sent to any one of you will be
considered notice to all.
23. SEVERABILITY AND FINAL EXPRESSION — This
Agreement and the Disclosure are the final expression of the
terms and conditions of your account. This written Agreement
and Disclosure may not be contradicted by evidence of any
alleged oral agreement. Should any part of this Agreement
or the Disclosure be found to be invalid or unenforceable, all
other parts of this Agreement and Disclosure shall remain
in effect and fully enforceable to the fullest extent possible
under this Agreement.
24. COPY RECEIVED — You acknowledge that you have
received a copy of this Agreement and Disclosure.
25. GAMBLING TRANSACTIONS PROHIBITED — You may
not use your card to initiate any type of gambling transaction.
26. PENALTY RATE DISCLOSURES — If applicable to your
account, all rates for your account, including the rates
for purchases, cash advances, and balance transfers, will
increase to the Penalty Rate when you meet one or more of
the conditions as set forth in the Disclosure accompanying
this Agreement. Any rate increases applied to your account
are subject to applicable notice requirements. Please refer
to the Disclosure for additional information regarding the
Penalty Rate.
27. VOLUNTARY PAYMENT PROTECTION — We may offer
Voluntary Payment Protection to you. Voluntary Payment
Protection is not necessary to obtain credit. If you purchase
Voluntary Payment Protection from us, you authorize us
Page 8

(continued)

to add the fees or insurance charges monthly to your loan
balance and charge you interest on the entire balance. At
our option we will change your payment or the period of
time necessary to repay the loan balance. The rate used
to determine the fees or insurance charges may change in
the future. If the rate changes, we will provide any notices
required by applicable law.
28. NOTICE TO UTAH BORROWERS — This written
agreement is a final expression of the agreement between
you and the Credit Union. This written agreement may not be
contradicted by evidence of any oral agreement.
29. THE FOLLOWING IS REQUIRED BY VERMONT LAW
— NOTICE TO CO-SIGNER — YOUR SIGNATURE ON
THIS NOTE MEANS THAT YOU ARE EQUALLY LIABLE FOR
REPAYMENT OF THIS LOAN. IF THE BORROWER DOES NOT
PAY, THE LENDER HAS A LEGAL RIGHT TO COLLECT FROM
YOU.

Your Billing Rights: Keep this Document for Future Use
This notice tells you about your rights and our
responsibilities under the Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at:
Dade County Federal Credit Union
1500 NW 107th Ave
Doral, FL 33172
You may also contact us on the Web: www.dcfcu.org
In your letter, give us the following information:
• Account information: Your name and account number.
• Dollar amount: The dollar amount of the suspected
error.
• Description of problem: If you think there is an error
on your bill, describe what you believe is wrong and
why you believe it is a mistake.
You must contact us:
• Within 60 days after the error appeared on your
statement.
• At least 3 business days before an automated payment
is scheduled, if you want to stop payment on the
amount you think is wrong.
You must notify us of any potential errors in writing [or
electronically]. You may call us, but if you do we are not
required to investigate any potential errors and you may have
to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell
you that we received your letter. We will also tell you
if we have already corrected the error.
2. Within 90 days of receiving your letter, we must either
correct the error or explain to you why we believe the
bill is correct.
Page 9

(continued)

While we investigate whether or not there has been an
error:
• We cannot try to collect the amount in question, or
report you as delinquent on that amount.
• The charge in question may remain on your statement,
and we may continue to charge you interest on that
amount.
• While you do not have to pay the amount in question,
you are responsible for the remainder of your balance.
• We can apply any unpaid amount against your credit
limit.
After we finish our investigation, one of two things will
happen:
• If we made a mistake: You will not have to pay the
amount in question or any interest or other fees
related to that amount.
• If we do not believe there was a mistake: You will have
to pay the amount in question, along with applicable
interest and fees. We will send you a statement of the
amount you owe and the date payment is due. We
may then report you as delinquent if you do not pay
the amount we think you owe.
If you receive our explanation but still believe your bill is
wrong, you must write to us within 10 days telling us that
you still refuse to pay. If you do so, we cannot report you as
delinquent without also reporting that you are questioning
your bill. We must tell you the name of anyone to whom
we reported you as delinquent, and we must let those
organizations know when the matter has been settled
between us.
If we do not follow all of the rules above, you do not have
to pay the first $50 of the amount you question even if your
bill is correct.
Your Rights if You Are Dissatisfied With Your Credit Card
Purchases
If you are dissatisfied with the goods or services that you
have purchased with your credit card, and you have tried
in good faith to correct the problem with the merchant, you
may have the right not to pay the remaining amount due on
the purchase.
To use this right, all of the following must be true:
1. The purchase must have been made in your home
state or within 100 miles of your current mailing
address, and the purchase price must have been
more than $50. (Note: Neither of these are necessary
if your purchase was based on an advertisement we
mailed to you, or if we own the company that sold
you the goods or services.)
2. You must have used your credit card for the purchase.
Purchases made with cash advances from an ATM or
with a check that accesses your credit card account
do not qualify.
3. You must not yet have fully paid for the purchase.

If all of the criteria above are met and you are still dissatisfied
with the purchase, contact us in writing [or electronically] at:
Dade County Federal Credit Union
1500 NW 107th Ave
Doral, FL 33172
www.dcfcu.org
While we investigate, the same rules apply to the disputed
amount as discussed above. After we finish our investigation,
we will tell you our decision. At that point, if we think you
owe an amount and you do not pay, we may report you as
delinquent.

DADE COUNTY FEDERAL CREDIT UNION
1500 NW 107th Ave • Doral, FL 33172
(305) 471-5080 • (800) 299-7147
Fax: (786) 845-3150 • www.dcfcu.org

STUDENT VISA
CONSUMER CREDIT CARD AGREEMENT

© CUNA MUTUAL GROUP, 1991, 2006, 09, ALL RIGHTS RESERVED

Page 10

(continued)

Page 11

1-1V2E7B01
CCM000
MXC500

M-103005

In this Agreement, “Agreement” means this Consumer Credit
Card Agreement. “Disclosure” means the Credit Card Account
Opening Disclosure. The Account Opening Disclosure is
incorporated into this Consumer Credit Card Agreement
and is part of the Agreement. In this Agreement the words
“you,” “your,” and “yours” mean each and all of those who
agree to be bound by this Agreement; “card” means the Visa
credit card and any duplicates, renewals, or substitutions the
Credit Union issues to you; “account” means your Visa credit
card line-of-credit account with the Credit Union; and “Credit
Union” means the Credit Union whose name appears on this
Agreement or anyone to whom the Credit Union transfers
this Agreement.
1. USING YOUR ACCOUNT — If you are approved for an
account, the Credit Union will establish a line of credit for
you. You agree that your credit limit is the maximum amount
(purchases, cash advances, finance charges, plus “other
charges”) which you will have outstanding on your account
at any time. Unless disclosed otherwise, the Credit Union
will not allow advances over the credit limit. If the Credit
Union has a program whereby it allows payment of advances
that exceed your credit limit, subject to a fee, the Credit
Union will provide you with notice, either orally, in writing,
or electronically (notwithstanding the requirements of the
paragraph entitled “Statements and Notices”) explaining your
right to opt in to the Credit Union’s program whereby it will
honor advance requests over the credit limit. In the event you
opt in to such a program, you agree to the terms of such a
program. You may request an increase in your credit limit
only by a method acceptable to the Credit Union. The Credit
Union may increase or decrease your credit limit, refuse to
make an advance and/or terminate your account at any time
for any reason not prohibited by law. If you are permitted to
obtain cash advances on your account, we may, from time to
time, issue convenience checks to you that may be drawn on
your account. Convenience checks may not be used to make
a payment on your account balance. If you use a convenience
check, it will be posted to your account as a cash advance.
We reserve the right to refuse to pay a convenience check
drawn on your account for any reason and such refusal shall
not constitute wrongful dishonor.
Page 1

(continued)

You may request that we stop the payment of a convenience
check drawn on your account. You agree to pay any fee
imposed to stop a payment on a convenience check issued
on your account. You may make a stop payment request
orally, if permitted, or in writing. Your request must be made
with sufficient time in advance of the presentment of the
check for payment to give us a reasonable opportunity to act
on your request. In addition, your request must accurately
describe the check including the exact account number, the
payee, any check number that may be applicable, and the
exact amount of the check. If permitted, you may make a stop
payment request orally but such a request will expire after
14 days unless you confirm your request in writing within
that time. Written stop payment orders are effective only for
six (6) months and may be renewed for additional six month
periods by requesting in writing that the stop payment order
be renewed. We are not required to notify you when a stop
payment order expires. If we re-credit your account after
paying a check or draft over a valid and timely stop payment
order, you agree to sign a statement describing the dispute
with the payee, to assign to us all of your rights against the
payee or other holders of the check or draft and to assist
us in any legal action. You agree to indemnify and hold us
harmless from all costs and expenses, including attorney’s
fees, damages, or claims, related to our honoring your stop
payment request or in failing to stop payment of an item as a
result of incorrect information provided to us or the giving of
inadequate time to act upon a stop payment request.
2. USING YOUR CARD — You understand that the use
of your credit card or credit card account will constitute
acknowledgement of receipt and agreement to the terms of
the Credit Card Agreement and Credit Card Account Opening
Disclosure (Disclosure). You may use your card to make
purchases from merchants and others who accept your
card. The credit union is not responsible for the refusal of
any merchant or financial institution to honor your card. If
you wish to pay for goods or services over the Internet, you
may be required to provide card number security information
before you will be permitted to complete the transaction.
In addition, you may obtain cash advances from the Credit
Union, from other financial institutions that accept your card,
and from some automated teller machines (ATMs). (Not all
ATMs accept your card.) If the credit union authorizes ATM
transactions with your card, it will issue you a personal
identification number (PIN). To obtain cash advances from
an ATM, you must use the PIN issued to you for use with
your card. You agree that you will not use your card for any
transaction that is illegal under applicable federal, state, or
local law. Even if you use your card for an illegal transaction,
you will be responsible for all amounts and charges incurred
in connection with the transaction. If you are permitted to
obtain cash advances on your account, you may also use your
card to purchase instruments and engage in transactions that
we consider the equivalent of cash. Such transactions will be
posted to your account as cash advances and include, but
are not limited to, wire transfers, money orders, bets, lottery
tickets, and casino gaming chips. This paragraph shall not be

interpreted as permitting or authorizing any transaction that
is illegal.
3. PROMISE TO PAY — You promise to pay all charges
(purchases, cash advances, balance transfers, use of
convenience checks or any other charge) made to your
account by you or anyone you authorize to use your account.
You also promise to pay all finance charges and other charges
added to your account under the terms of this Agreement or
another agreement you made with the Credit Union. If this
is a joint account, the paragraph on JOINT ACCOUNTS also
applies to your account.
4. PERIODIC RATES — The periodic rates applicable to
purchases, cash advances, and balance transfers are disclosed
on the Disclosure that accompanies this Agreement. Any
penalty rate that may be imposed for failing to make a payment
by the payment due date is also disclosed on the Disclosure.
Any rate change will be made pursuant to applicable law.
If the rate for your account is variable, as indicated on the
accompanying Disclosure, the rate charged on purchases,
cash advances, balance transfers and any penalty rate will
vary periodically as disclosed in the Disclosure accompanying
this Agreement. The initial rate on your account for certain
types of transactions may be an introductory discounted rate
(Introductory Rate) that is lower than the rate that would
ordinarily apply for that type of transaction. If an Introductory
Rate applies to your account, the rates and the period of time
it will be effective is shown on the Disclosure accompanying
this Agreement. After the Introductory Rate period expires,
the periodic rate will automatically increase to the rates that
would ordinarily apply for that type of transaction based on
the terms of this Agreement.
5. FINANCE CHARGES — New purchases posted to your
account during a billing cycle will not incur a finance charge
for that billing cycle. Finance charge begins to accrue on
those purchases from the first day of the next billing cycle,
unless you paid the entire new balance on the previous
cycle’s billing statement by the payment due date of that
statement. To avoid an additional finance charge on the
balance of purchases, you must pay the entire new balance
on the billing statement by the payment due date of that
statement. A finance charge begins to accrue on cash
advances from the date you get the cash advance or from
the first day of the billing cycle in which the cash advance is
posted to your account, whichever is later.
The finance charge is calculated separately for purchases
and cash advances. For purchases, the finance charge is
computed by applying the periodic rate to the average daily
balance of purchases. To calculate the average daily balance
of purchases, we take the beginning outstanding balance
of purchases each day and subtract any payments and/or
credits that we apply to the purchase balance. (We do not add
in any purchases posted during the billing cycle.) This gives
us the daily balance of purchases. We then add all of the daily
balances of purchases for the billing cycle together and divide
the total by the number of days in the billing cycle. This gives
us the average daily balance of purchases.

For cash advances, the finance charge is computed by
applying the periodic rate to the average daily balance of
cash advances. To calculate the average daily balance of
cash advances, we take the beginning outstanding balance
of cash advances each day, add in any new cash advances,
and subtract any payments and/or credits that we apply to
the cash advance balance. This gives us the daily balance of
cash advances. We then add all of the daily balances of cash
advances for the billing cycle together and divide the total
by the number of days in the billing cycle. This gives us the
average daily balance of cash advances. Balance transfers
are calculated in the same manner as cash advances.
6. FOREIGN TRANSACTIONS — Purchases and cash
advances made in foreign currencies will be debited from
your account in U.S. dollars. The exchange rate between
the transaction currency and the billing currency used for
processing international transactions is a rate selected by
Visa from a range of rates available in wholesale currency
markets for the applicable central processing date, which
rate may vary from the rate Visa itself receives or the
government-mandated rate in effect for the applicable central
processing date. The exchange rate used on the processing
date may differ from the rate that would have been used on
the purchase date or cardholder statement posting date.
A fee (finance charge), calculated in U.S. dollars, will be
imposed on all foreign transactions, including purchases,
cash advances and credits to your account. A foreign
transaction is any transaction that you complete or a
merchant completes on your card outside of the United
States, with the exception of U.S. military bases, U.S.
territories, U.S. embassies or U.S. consulates. The Foreign
Transaction Fee is set forth on the Disclosure accompanying
this Agreement.
7. FEES — In addition to the periodic rate, the following
additional fees may be imposed on your account. If applicable
to your account, the fee amounts and explanations are
disclosed on the Disclosure accompanying this Agreement.
Your account may also be subject to additional fees as set
forth on the Disclosure accompanying this Agreement.
a. Replacement Card Fee. If your account is subject to the
Replacement Card Fee, a fee will be added to your account
for each replacement card that is issued for any reason.
b. Foreign Transaction Fee (Finance Charge). If your
account is subject to a Foreign Transaction Fee (finance
charge), a fee may be added to your account for transactions
made outside of the United States or in a foreign currency.
Transactions made in a foreign currency using a Visa
branded card or processed by a network operated or
affiliated with Visa will be subject to a fee as set forth on the
Disclosure accompanying this Agreement.
c. Late Payment Fee. If your account is subject to a Late
Payment Fee, the fee will be added to your account when you
do not make the required minimum payment by or within the
number of days of the statement Payment Due Date set forth
on the Disclosure accompanying this Agreement.

d. Over-the-Credit Limit Fee. If you have elected the
feature to allow your account to go over your credit limit,
we may charge you a fee as allowed by law. However, in no
case will we impose an over-the-limit fee except in the next
two billing cycles unless you have obtained an additional
extension of credit in excess of such credit limit during each
subsequent cycle or you have reduced the balance below the
credit limit as of the end of each bill cycle.
e. Returned Payment Fee. If your account is subject to a
Returned Payment Fee, the fee will be added to your account
when a payment is returned for any reason.
f. Statement Copy Fee. If your account is subject to a
Statement Copy Fee, except as limited by applicable law
and when the request is made in connection with a billing
error made by the Credit Union, a fee may be added to your
account for each copy of a sales draft or statement that you
request.
g. Rush Fee. If your account is subject to a Rush Fee,
except as limited by applicable law, a fee may be added to
your account for each rush card that you request, providing
delivery of the card is also available by standard mail service,
without paying a fee for delivery.
8. PAYMENTS — Each month you must pay at least the
minimum payment shown on your statement by the date
specified on the statement. You may pay more frequently,
pay more than the minimum payment or pay the total new
balance in full. If you make extra or larger payments, you
are still required to make at least the minimum payment
each month your account has a balance (other than a credit
balance). The minimum payment is 3.00% of your total new
balance, or $10.00, whichever is greater, plus the amount
of any prior minimum payments that you have not made,
all outstanding unpaid fees and charges, and any amount
you are over your credit limit by the date specified on the
statement. The Credit Union also has the right to demand
immediate payment of any amount by which you are over
your credit limit.
9. PAYMENT ALLOCATION — Subject to applicable law,
your payments may be applied to what you owe the Credit
Union in any manner the Credit Union chooses. However, in
every case, in the event you make a payment in excess of
the required minimum periodic payment, the Credit Union
will allocate the excess amount first to the balance with the
highest annual percentage rate and any remaining portion to
the other balances in descending order based on applicable
annual percentage rate.
10. SECURITY INTEREST — You grant the Credit Union a
security interest under the Uniform Commercial Code and
under any common law rights the Credit Union may have
in any goods you purchase. If you give the Credit Union
a specific pledge of shares by signing a separate pledge
of shares, your pledged shares will secure your account.
You may not withdraw amounts that have been specifically
pledged to secure your account until the Credit Union agrees
to release all or part of the pledged amount.

Page 2

Page 3

Page 4

Page 5

(continued)

(continued)

(continued)

(continued)

Your Account is secured by all other shares you have
in any individual or joint account with the Credit Union,
except for shares in an Individual Retirement Account or
in any other account that would lose special tax treatment
under state or federal law if given as security. These
other shares may be withdrawn unless you are in default
under this agreement. You authorize the Credit Union
to apply the balance in your individual or joint share
accounts to pay any amounts due on your Account if you
should default.
Collateral securing other loans you have with the Credit Union
may also secure this loan, except that a dwelling will never
be considered as security for this account, notwithstanding
anything to the contrary in any other agreement.
11. DEFAULT — You will be in default if you fail to make any
minimum payment or other required payment by the date
that it is due. You will be in default if you break any promise
you make under this Agreement. You will be in default if you
die, file for bankruptcy or become insolvent, that is, unable
to pay your obligations when they become due. You will be
in default if you make any false or misleading statements in
any credit application or credit update. You will also be in
default if something happens that the Credit Union believes
may substantially reduce your ability to repay what you owe.
When you are in default, the Credit Union has the right to
demand immediate payment of your full account balance
without giving you notice. If immediate payment is demanded,
you agree to continue paying finance charges at the periodic
rate charged before default, until what you owe has been
paid, and any shares that were given as security for your
account may be applied towards what you owe.
In the event that any suit is filed against the Credit Union with
respect to this Agreement, or any credit card issued under
this Agreement, the suit shall only be brought in the courts
of the state of Florida.
12. LIABILITY FOR UNAUTHORIZED USE-LOST/STOLEN
CARD NOTIFICATION — You agree to notify us immediately,
orally or in writing, at 560 Carillon Parkway, St. Petersburg,
FL 33716 or telephone (800) 449-7728 seven (7) days a
week, 24 hours a day, of the loss, theft, or unauthorized use
of your credit card. You may be liable for the unauthorized
use of your credit card. You will not be liable for unauthorized
use that occurs after you notify us of the loss, theft, or
possible unauthorized use. You will have no liability for
unauthorized purchases made with your credit card, unless
you are grossly negligent in the handling of your card. In any
case, your liability will not exceed $50.00.
13. CHANGING OR TERMINATING YOUR ACCOUNT — As
permitted by law, the Credit Union may change the terms
of this Agreement and any attached Disclosure from time to
time. Notice of any change will be given in accordance with
applicable law. If permitted by law and specified in the notice
to you, the change will apply to your existing account balance
as well as to future transactions.
Page 6

(continued)

Either you or the Credit Union may terminate this Agreement
at any time, but termination by you or the Credit Union
will not affect your obligation to pay the account balance
plus any finance and other charges you owe under this
Agreement. Your obligation to pay the account balance plus
any finance and other charges you owe under this agreement
are subject to all applicable laws and regulations regarding
repayment requirements. You are also responsible for all
transactions made to your account after termination, unless
the transactions were unauthorized.
The card or cards you receive remain the property of the
Credit Union and you must recover and surrender to the
Credit Union all cards upon request or upon termination of
this Agreement whether by you or the Credit Union. If this is
a joint account, the paragraph on JOINT ACCOUNTS of this
Agreement also applies to termination of the account.
14. CHANGING OR TERMINATING AUTHORIZED USERS
— Upon your request, we may issue additional cards for
authorized users that you designate. You must notify us in
writing of any termination of an authorized user’s right to
access your account. Your letter must include the name of
the authorized user and your account number and/or any
subaccount number issued to the authorized user along with
the authorized user’s card and any convenience or other
access checks issued to the authorized user. If you cannot
return the authorized user’s card or access checks and if you
request your account to be closed, we will close your account
and you may apply for a new account.
15. CREDIT REVIEW AND RELEASE OF INFORMATION —
You authorize the Credit Union to investigate your credit
standing when opening or reviewing your account. You
authorize the Credit Union to disclose information regarding
your account to credit bureaus and creditors who inquire
about your credit standing. If your account is eligible
for emergency cash and/or emergency card replacement
services, and you request such services, you agree that
we may provide personal information about you and your
account that is necessary to provide you with the requested
service(s).
16. RETURNS AND ADJUSTMENTS — Merchants and
others who honor your card may give credit for returns or
adjustments, and they will do so by sending the Credit Union
a credit slip which will be posted to your account. If your
credits and payments exceed what you owe the Credit Union,
the amount will be applied against future purchases and cash
advances. If the credit balance amount is $1.00 or more, it
will be refunded upon your written request or automatically
after six (6) months.
17. ADDITIONAL BENEFITS/CARD ENHANCEMENTS — The
Credit Union may from time to time offer additional services
to your account, such as travel accident insurance, at no
additional cost to you. You understand that the Credit Union
is not obligated to offer such services and may withdraw or
change them at any time.

Page 7

(continued)

